WR-B-01-04




              AUDIT             FACILITY MAINTENANCE AT THE
                              IDAHO NATIONAL ENGINEERING AND
             REPORT             ENVIRONMENTAL LABORATORY




                                         MARCH 2001




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
      OFFICE OF AUDIT SERVICES
                                             March 22, 2001


MEMORANDUM FOR THE MANAGER, IDAHO OPERATIONS OFFICE

FROM:                 Lawrence R. Ackerly, Regional Manager (Signed)
                      Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Facility Maintenance at the
                      Idaho National Engineering and Environmental Laboratory"

BACKGROUND

 The average age of facilities at the Idaho National Engineering and Environmental Laboratory is 27 years
and some of the facilities are more than 50 years old. Even though the facilities are aging, the Department
 of Energy's (DOE) Idaho Operations Office (Idaho) goal is to maintain its facilities in a safe and reliable
  state and to maximize their useful life. To achieve its goal, Idaho spent an estimated $72 million on a
combination of preventive and corrective maintenance in Fiscal Year 1999. The objective of our audit was
            to determine whether Idaho maintained facilities in a safe and economical manner.

RESULTS OF AUDIT

Idaho has not maintained its facilities in a safe and economical manner. Serious facility-related problems
occurred because management did not develop a site maintenance plan, include performance goals or
standards in the Bechtel BWXT Idaho, LLC contract, and devise a computerized maintenance management
system that contained complete and reliable data. As a result, Idaho's facility maintenance program
threatens mission accomplishment, personal safety, and it is uneconomical. We recommended that the
Manager of the Idaho Operations Office take several steps to improve controls over the maintenance
program.

MANAGEMENT REACTION

Management concurred with the finding and recommendations in the draft report. Management identified
specific corrective actions to address each recommendation identified in the draft report and noted that
DOE Idaho was already in the process of making improvements to maintenance management at the time of
the audit.
FACILITY MAINTENANCE AT THE IDAHO NATIONAL
ENGINEERING AND ENVIRONMENTAL LABORATORY

TABLE OF
CONTENTS




                 Overview

                 Introduction and Objective .............................................. 1


                 Conclusions and Observations ....................................... 1


                 Facilities Not Maintained In A Safe
                 Or Economical Manner


                 Details of Finding ............................................................ 2


                 Recommendations and Comments ................................. 5


                 Appendices


                 Scope and Methodology ................................................. 8


                 Related Office of Inspector General, General
                 Accounting Office and DOE Reports............................... 9
Overview
INTRODUCTION      The Department of Energy's (DOE) Idaho Operations Office (Idaho)
AND OBJECTIVE     owns more than 500 buildings at the Idaho National Engineering and
                  Environmental Laboratory (INEEL). Some of the facilities are new
                  while others are more than 50 years old. Collectively, the average age
                  of these facilities is 27 years. Idaho along with its contractor, Bechtel
                  BWXT Idaho, LLC (Bechtel) estimated that $72 million was spent in
                  Fiscal Year (FY) 1999 on a combination of preventive and corrective
                  maintenance at the INEEL. The goal of Idaho's facility maintenance
                  program is to keep facilities in a safe and reliable state that maximizes
                  their useful life.

                  The objective of our audit was to determine whether Idaho maintained
                  facilities in a safe and economical manner.

CONCLUSIONS AND   Idaho has not maintained its facilities in a safe and economical manner.
OBSERVATIONS      Facility-related problems occurred because management did not ensure
                  that a site maintenance plan was developed, performance goals or
                  standards were included in the Bechtel contract, and a computerized
                  maintenance management system contained complete and reliable data.
                  As a result, Idaho's facility maintenance program threatens mission
                  accomplishment, personnel safety, and it is uneconomical.

                  During our audit, management took several steps to correct these
                  deficiencies. However, the audit identified a material internal control
                  weakness that management should consider when preparing its yearend
                  assurance memorandum on internal controls.




                                                 __________Signed_____________
                                                 Office of Inspector General




Page 1                                                Introduction and Objective/
                                                      Conclusions and Observations
Facilities Not Maintained In A Safe Or Economical Manner
Facility Operations    Idaho did not maintain its facilities in a safe and economical manner.
Affected By Untimely   Facility problems were often related to untimely completion of
Maintenance            maintenance work orders. A sample of recent work orders for
                       preventive maintenance revealed that 51 percent were not completed by
                       the requested due date. This included preventive maintenance needed
                       on more than 150 fire protection and life safety systems such as fire
                       alarms, fire pumps, and water supply control valves. It also included
                       preventive maintenance related to emergency lighting, a monorail, and
                       an overhead bridge crane. We identified examples of problems related
                       to Idaho's facility maintenance program that may have been avoided if a
                       more organized preventive maintenance program had been in place.
                       For example:

                           • On July 12, 1999, two of four generators failed to provide back-
                             up power when the largest operating area at the INEEL lost
                             power. A site emergency was declared that led to the shut down
                             and/or evacuation of high-level radioactive liquid waste
                             processing facilities, spent nuclear-fuel storage facilities,
                             laboratories, and deep-well water pumps. An internal report on
                             the incident attributed the generator failures to inadequate
                             preventive maintenance.

                           • On November 6, 1999, a leaky valve in the primary coolant
                             system caused an unscheduled shut down of the Advanced Test
                             Reactor (ATR). The ATR lost 55 hours of operation. An
                             internal report concluded that a lack of preventive maintenance
                             contributed to the problem. A nearly identical failure occurred
                             in 1996.

                           • On January 24, 2000, an over-pressurization condition in a
                             furnace caused an explosion that led to an exhaust stack falling
                             to the floor. Although no one was injured, this was the second
                             failure of this furnace. A report on the incident cited improper
                             maintenance as the problem. Incident reports identified other
                             furnace problems, all related to inadequate maintenance.

                           • On August 5, 1999, the Test Reactor Area potable water supply
                             was contaminated after the area's chlorination system failed. A
                             report linked the problem to maintenance that was neglected.

                       We further noted that, as of April 2000, the backlog of preventive
                       maintenance was approximately 31,000 hours.




Page 2                                                                    Details of Finding
                      Likewise, 96 percent of the work orders for corrective maintenance
                      were not completed by the requested due date. For instance, two work
                      orders to repair an air compressor and a raw water pump were
                      completed three months late. In June 1999, the corrective maintenance
                      backlog was estimated at 139,000 hours. By April 2000, the backlog
                      had increased to an estimated 311,000 hours.

Goal Of Maintenance   According to DOE Order 4330.4B, the primary role of a facility
Program               maintenance program is to preserve Government property and ensure
                      the safe, reliable, and economical operation of facilities. The Order
                      requires the contractor, in coordination with the appropriate operations
                      office to develop a site maintenance plan that provides a clear
                      understanding of the contractor's maintenance program. Idaho Notice
                      430.1A reiterated the requirement for the contractor to develop,
                      implement, and document a cost-effective and efficient maintenance
                      program through a site maintenance plan. The plan should include
                      controls to ensure timely maintenance, conduct facility assessment
                      surveys, track maintenance budgets, and measure performance
                      effectiveness.

                      The Bechtel contract requires operational excellence in facility
                      maintenance. It also requires the contractor to balance the goal of
                      decreasing costs with long-term reinvestment planning in the area of
                      facility maintenance. To achieve this, the contractor implemented a
                      computerized maintenance management system that provides data on
                      facility maintenance operations.

                      Finally, a September 1999 General Accounting Office (GAO) report
                      identified best practices for the Department of Defense's facility
                      maintenance program. This guidance was available for use at the
                      INEEL as a model for facility maintenance. The GAO recommended
                      prioritization of budget resources based on physical condition and
                      relevance of facilities to the mission; a single, engineering-based
                      system for assessing facility conditions; a single, property-maintenance
                      budget that is controlled by a central office with the power to shift
                      resources to facilities in the greatest need; and restriction of repair and
                      maintenance funds to repair and maintenance activities.

Management            The problems cited in this report occurred because of weaknesses in
Control               Idaho's facility maintenance program. Specifically, Idaho did not
Weaknesses            ensure that a comprehensive site maintenance plan was developed and
                      implemented, establish performance goals or standards for facility
                      maintenance in the Bechtel contract, and maintain a computerized
                      maintenance management system with complete and reliable data.


Page 3                                                                     Details of Finding
                                  Site Maintenance Plan

         Idaho did not ensure that Bechtel developed and implemented a
         comprehensive site maintenance plan. Such a plan would provide the
         controls needed to define and implement Idaho's facility maintenance
         program. Without a plan, Bechtel did not have sufficient oversight over
         its maintenance program. For instance, facility assessment surveys
         were used to determine specific maintenance needs of facilities.
         However, these surveys were performed differently throughout INEEL.
         In fact, some facilities were not assessed at all.

         In addition, maintenance budgets were decentralized and expenditures
         were not always restricted to maintenance activities. Some
         maintenance funds, in fact, were used for non-maintenance purposes.
         For instance, we found that $362,700 was transferred out of the
         Irradiated Fuel Storage Facility maintenance budget so that it could be
         used for spent fuel-transfer activities. Accordingly, Bechtel had to
         postpone maintenance activities at this facility such as evaluating and
         repairing the facility's breathing air system and installing the lighting
         system in the spent nuclear-fuel storage area.

         Further, both Idaho and Bechtel officials were aware of a GAO report
         that identified "Best Practices" for facility maintenance. However,
         officials did not attempt to establish and implement its suggested best
         practices.

                                Performance Measurement

         Idaho did not incorporate any performance goals or standards
         concerning facility maintenance into the Bechtel contract. The contract
         required the contractor to balance the goal of decreasing costs with
         long-term reinvestment planning in the area of facility maintenance.
         However, the contract did not contain performance goals or standards to
         measure facility maintenance operations. Furthermore, Idaho did not
         attach any fee to the activity of facility maintenance in the Bechtel
         contract. Although Bechtel spent an estimated $72 million on
         maintenance operations in FY 1999, the success of those expenditures
         was difficult to measure without established goals or standards.

                      Maintenance Data Incomplete and Unreliable

         The data on the contractor's computerized maintenance management
         system was incomplete and unreliable. Thus, management could not
         make informed decisions based on this data. This system was designed


Page 4                                                       Details of Finding
                         to manage the maintenance work control process, as well as track
                         performance data. However, the system could neither produce a
                         comprehensive list of maintenance needs nor produce reliable actual
                         cost data per maintenance work order. In addition, non-maintenance
                         work was erroneously classified as maintenance on the computer
                         system. For example, hazardous waste shipments and calibrations were
                         classified as preventive maintenance, instead of shipments and
                         calibrations, respectively. This skewed management reports that track
                         preventive maintenance performance.

Inadequate Maintenance   An ineffective maintenance program threatens mission accomplishment
Program Threatens        and personnel safety. In September of 1998, the Office of Oversight,
Safety, Mission          Environment, Safety and Health reported that reactive maintenance
Accomplishment, And      practices result in potential degradation of safety and operability of
Costs More Than          aging facilities. Based on the facility-related problems that have
Necessary                occurred, INEEL's facility maintenance program has become reactive
                         rather than proactive.

                         A reactive maintenance program may cost Idaho more money than
                         necessary. For example, it cost an estimated $392,000 when the ATR
                         was shut down because preventive maintenance was not performed.
                         According to a National Academy of Sciences National Research
                         Council paper, it cost significantly more to perform corrective
                         maintenance than preventive maintenance. Based on industry
                         estimates, for every dollar spent on preventive maintenance, as much as
                         eight dollars may be saved in the future. However, it is generally
                         difficult to relate a lack of maintenance to specific dollar costs.

RECOMMENDATIONS          We recommend that the Manager, Idaho Operations Office:

                         1. Develop and implement a comprehensive site maintenance plan that
                            incorporates Departmental and GAO facility maintenance best
                            practices. As a minimum, the plan should include procedures and
                            controls to:

                                 a. Complete maintenance activities in a timely manner;
                                 b. Manage the backlog at acceptable levels; and,
                                 c. Centralize maintenance budgets to ensure consistency of
                                    use and prioritization of resources to the most critical
                                    maintenance needs.

                         2. Develop and incorporate performance goals and standards into the
                            Bechtel contract to measure facility maintenance operations.



Page 5                                                  Recommendations and Comments
             3. Direct the contractor to correct the deficiencies in its computerized
                maintenance management system.

MANAGEMENT   Management concurred with the finding and recommendations.
COMMENTS     Further, management noted that prior to the audit it was in the process
             of completing corrective actions resulting from a serious maintenance
             accident in 1998. As a consequence of that accident, many
             maintenance activities had been delayed until Idaho was assured that
             effective processes consistent with Integrated Safety Management were
             in effect. Thus, Idaho was already in the process of redirecting itself
             toward improvements and efficiencies in maintenance management at
             the time of the audit.

             Recommendation 1: Management concurred and stated that on
             August 18, 2000, Idaho issued a completely revised maintenance
             management Order (ID O 433.A). This Order institutes requirements
             for the establishment of a single maintenance management program at
             the INEEL and reinforces the requirements for site maintenance
             planning as a means of ensuring management control and
             accountability. The Order has been incorporated into the Bechtel
             contract for implementation. An implementation plan has been
             developed, schedules are in effect, and performance is monitored
             biweekly by Idaho and the contractor. Implementation of the
             maintenance management program (including maintenance planning) is
             a fee-bearing performance activity for FY 2001. The implementation
             plan includes GAO best practices mentioned in the Office of Inspector
             General (OIG) draft report, including the establishment of a single
             maintenance program office, centralization and control of maintenance
             personnel resources, and allocation of resources based upon strategic
             importance and mission needs. Because the INEEL is a multi-program
             laboratory funded by many programs, implementation of a centralized
             maintenance budget may not be feasible under existing fiscal regulatory
             constraints.

             Recommendation 2: Management stated that revised maintenance
             standards have been incorporated into the Bechtel contract. Also, on
             October 9, 2000, Idaho issued a Performance Evaluation Measurement
             Plan (PEMP) to Bechtel, covering the administration of the award-fee
             provisions of the contract regarding performance incentives and
             allocation of total available fee. The PEMP includes fee-bearing
             performance goals and measures pertaining to the INEEL Maintenance
             Management Program. Further, it requires the contractor to develop,
             institutionalize, and implement the INEEL Maintenance Management
             Program, including the establishment of performance measures,


Page 6                                       Recommendations and Comments
                   implementation of documentation and training, and implementing a
                   means for assessing maintenance backlogs. The PEMP also requires
                   the contractor to achieve a site-wide mean time to repair priority 3 work
                   orders of sixty days, with no adverse impact to priority 1 and 2 work
                   orders. Finally, the PEMP requires the contractor to achieve specified
                   completion rates of required preventive maintenance for all of the
                   INEEL.

                   Recommendaton 3: Management stated that in the FY 2001 Program
                   Execution Guidance document issued on October 18, 2000, Idaho has
                   directed the contractor to improve its computerized maintenance
                   management system. Furthermore, the system application previously
                   selected for maintenance management (Passport) was also selected by
                   the INEEL to serve as the main platform for our business applications.
                   The software is currently being upgraded, resulting in more reliable
                   maintenance cost information.

AUDITOR COMMENTS   Management's comments were responsive to the recommendations.




Page 7                                             Recommendations and Comments
Appendix 1
SCOPE         The audit was performed from April 2000 to January 2001, at DOE
              Idaho and Bechtel offices in Idaho Falls, Idaho, and at the INEEL and
              covered the period February 1998 through May 2000.

METHODOLOGY   To accomplish the audit objective, we:

                  • Collected and reviewed a random attribute sample of 86 work
                    orders out of an identified population of 4,787 found on the
                    computerized maintenance management system. The sample
                    size provided a 95 percent confidence level with 5 percent
                    precision and 6 percent error rate. The sample was limited to
                    corrective and preventive maintenance for the INEEL's four
                    major site areas;

                  • Collected and validated additional work orders on a judgmental
                    basis that pertained to the audit;

                  • Reviewed applicable Federal and DOE regulations;

                  • Reviewed prior OIG, GAO, and DOE Headquarters reviews;

                  • Reviewed and validated selected facility maintenance data;

                  • Reviewed the Government Performance and Results Act of 1993
                    and determined whether performance measures were
                    established; and,

                  • Interviewed Idaho and Bechtel personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to Idaho's implementation of the facility
              maintenance program at the INEEL. Additionally, we assessed the
              Government Performance and Results Act of 1993 and determined that
              there were no specific performance goals or standards for facility
              maintenance in the Bechtel contract. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. Since our statistical
              sample of work orders revealed material weaknesses with the data on
              the computerized maintenance management system, we relied on
              computer-processed data to the least extent practicable to accomplish
              our audit objective. We discussed audit results with management on
              February 12, 2001.

Page 8                                                  Scope and Methodology
Appendix 2
                         RELATED OFFICE OF INSPECTOR GENERAL,
                             GENERAL ACCOUNTING OFFICE,
                                   AND DOE REPORTS



This report concerned DOE's management of facility maintenance programs at the INEEL. Prior OIG,
GAO, and DOE reports related to this area are listed below.

•   Management of the Nuclear Weapons Production Infrastructure, DOE/IG-0484, September 2000.
    DOE needed to fully link workload, production capacity, and budget information to facility
    requirements for nuclear weapons production. Current and future Stockpile Stewardship Plan goals
    stand at risk because of inadequate infrastructure maintenance.

•   Military Infrastructure: Real Property Management Needs Improvement, GAO/NSIAD-99-100,
    September 1999. The Department of Defense lacked a comprehensive maintenance strategy that
    caused the various military services to develop different prioritization ratings and prevented
    maintenance funds from being used in the most critical areas or being obtained to reduce the existing
    repair backlog.

•   Federal Buildings: Billions are Needed for Repairs and Alterations, GAO/GGD-00-98, March 2000.
    The General Services Administration requires billions of dollars to satisfy Federal building repair
    needs due to a repair revolving fund that does not generate enough revenue, incomplete and
    unreliable repair data, and lack of a strategic approach to meeting repair requirements.

•   Oversight Analysis: Maintenance, Office of Oversight Environment, Safety and Health, September
    1998. DOE's low priority on maintenance potentially degraded the safety and operability of DOE
    facilities through lack of funding for preventive maintenance, increasing demands for resources from
    aging facilities, and management's acceptance of maintenance work-arounds.




Page 9                                                 Related Office of Inspector General, General
                                                       Accounting Office, and DOE Reports
                                                                      Report No.: WR-B-01-04


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
